Report No. D-2009-053          February 10, 2009




      Independent Auditor's Report on the
       DoD FY 2008 Detailed Accounting
         Report of the Funds Obligated
           for National Drug Control
               Program Activities
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DR IVE
                            AR LI NGTON, VI RGINIA 22202-4704




                                                                          February 10, 2009

MEMORANDUM FOR THE DEPUTY ASSISTANT SECRETARY OF DEFENSE
               (COUNTERNARCOTICS, COUNTERPROLIFERATION, and
               GLOBAL THREATS)

SUBJECT: Independent Auditor's Report on the DoD FY 2008 Detailed Accounting
         Report of the Funds Obligated for National Drug Control Program Activities
         (Report No. D-2009-053)

Public Law 105-277 is known also as "The Office of National Drug Control Policy
Reauthorization Act" (the Act). The Act requires that DoD annually submit a detailed
report (the Report) to the Director of the Office of National Drug Control Policy
accounting for all funds DoD expended for National Dlug Control Program activities
during the previous fiscal year. The Public Law was reauthorized by Public Law 109-
469 in December 2006. The Act requires that the Inspector General of the Department of
Defense authenticate the Report prior to its submission to the Director.

Office of National Drug Control ' Policy Circular "Drug Control Accounting," (the
Accounting Policy Circular) May 1, 2007, provides the policies and procedures DoD
must use to prepare the Report and authenticate the DoD funds expended on National
Drug Control Program activities. The Accounting Policy Circular specifies that the
Report must contain a table of prior year drug control obligations, listed by functional
area, and include five assertions relating to the obligation data presented in the table.

The Deputy Assistant Secretary of Defense (Cowlternarcotics, Counterproliferation, and
Global Threats) [DASD (CN/CP/GT») was responsible for the detailed accounting of
funds obligated and expended by 000 for the National Drug Control Program for
FY 2008. We have reviewed the DASD (CN/CP/GT) detailed accounting in accordance
with the attestation standards established by the American Institute of Certified Public
Accountants and in compliance with generally accepted government auditing standards.
We performed a review-level attestation, which is substantially less in scope than an
examination done to express an opinion on the subject matter. Accordingly, we do not
express an opllllon.

We reviewed six 000 reprogramming actions that allocated $1 ,314.8 million among the
Military Departments, National Guard, and Defense agencies. We reviewed the year-end
obligation report and determined that DASD (CN/CP/GT) allocated the funds to
appropriations and project codes intended for the DoD Counterdrug program.

The DoD Office of Inspector General prcviously identified a material management
control weakness related to the DoD Components' accounting for Counterdrug funds. In
response to our identification of this weakness, DASD (CN/CP/GT) issued a policy
memorandum on August 25, 2005, requiring detailed transaction support for all
Counterdrug obligations.

As part of our review attestation for FY 2008, we determined whether the DoD
Components that received Counterdrug funding from DASD (CN/CP/GT) had
implemented procedures to support reported obligations with detailed transaction listings.
We requested and obtained the listings that were available for reported obligations. We
were able to obtain the majority of detail transactions for the Military Component
obligations.

DASD (CN/CP/GT) provided us the Report in a letter dated January 9,2009, which we
reviewed to determine compliance with the Accounting Policy Circular. The detailed
accounting indicated that during FY 2008 the DoD obligated $1,193.4 million in the
Counterdrug program functional areas. The Office of the DASD (CN/CP/GT) compiled
the Report from data the Military Departments and other DoD Components submitted.

DASD (CN/CP/GT) initially reprogrammed the funds from the Central Transfer Account
to the DoD Components, using project codes. Beginning in FY 2008, the DoD
Components provided year-end obligation data to DASD (CN/CP/GT) through the
DASD CN database which compiled the data into one obligation report. In order to
present the obligations by functional area in compliance with the Accounting Policy
Circular, DASD (CN/CP/GT) applied percentages to each project code in the
consolidated report to compute the amounts presented in the table of obligations instead
of obtaining the information directly from the accounting systems.

Based on our review, except for the DASD (CN/CP/GT) use of percentages to calculate
the obligations presented by functional area, nothing came to our attention during the
review that caused us to believe the detailed accounting of funds obligated by DoD on the
National Drug Control Program for FY 2008 is not presented, in all material respects, in
conformity with the Accounting Policy Circular.




                                             ~a-mJv
                                            Patricia A. Marsh, CPA
                                            Assistant Inspector General
                                            Defense Business Operations




                                            2
                   OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE

                                   2900 DEFENSE PENTAGON

                                  WASHINGTON, D.C. 20301-2900





GLOBAL SECURITY
    AFFAIRS

                                                                       J Ai'~ - S 2009

     Mr. Jon Rice

     Associate Director

     Perfonnance and Budget

     Office of National Drug Control Policy

     750 17th Street, NW

     Room 535

     Washington, DC 20503


     Dear Mr. Rice:

            The drug methodology used to calculate obligations by drug control function of
     Fiscal Year 2008 budgetary resources is reasonable and accurate. The obligation table in
     TAB A was generated by the methodology as reflected in TAB B. The obligations are
     associated with a financial plan that properly reflects all changes made during the fiscal
     year. The Counternarcotics Central Transfer Account does not receive Fund Control Notice.
     Perfonnance Reporting will be addressed under separate correspondence.




                                        Rich d J. ouglas
                              Deputy Assistant cretary of Defense
                      Counternarcotics, Counte roliferation & Global Threats




     Enclosures:
     As stated

     CF:
     DODIG
                                                                  UNCLASSIFIED

                                     Counternarcotics Central Transfer Account Obligations
                                                                       ($ 000)


ONDCP Resource Categories                              FY-08
    Intelligence: Dom Law Enforcement                   42,310
    Intelligence: Interdiction                          34,321
    Intelligence: International                         84,880
    Interdiction                                       291,569
    International                                      385,981
    Investigative                                       50,679
    Prevention                                         127,484
    Prosecution                                               o
    R&D: Interdiction                                   12,817
    R&D: International                                   4,194
    State and Local Assistance                         150,905
    Treatment                                            8,249
    TOTAL                                         1.193.388·
    * This amount inlcudes a 0.98% obligation rate for MILPERS and a 0.99% obligation rate for O&M. Investment appropriations, which
    are multi-year, are currently obligated at 0.34%.




DRUG RESOURCES PERSONNEL SUMMARY
    Total FTEs                                            1.484




                                                                  UNCLASSIFIED
                                                                           1
                                   DRUG METHODOLOGY



Central Transfer Account

        The Counternarcotics Central Transfer Account (CTA) was established in PBD 678
in November 1989. Under the CTA, funds are appropriated by Congress to a single
budget line, not to the Services baselines. The CTA accounts for all counternarcotics
resources for the Department of Defense with the exception of OPTEMPO and Active Duty
MILPERS. Funds are reprogrammed from the CTA to the Services and Defense Agencies
in the year of execution. The CTA allows for greater execution flexibility in the
counternarcotics program with the ability to realign resources to address changes in
requirements. The CTA is essential to respond effectively to the dynamic nature of the
drug threat.

       The Office of National Drug Control Policy (ONDCP) reports within the National
Drug Control Strategy the amount of funds appropriated to the counternarcotics CTA. The
actual obligations for the counternarcotics program for a particular fiscal year differ from
the amount released to the CTA since some of the 000 counternarcotics effort is executed
with multi-year funding.

       The reprogramming process begins with reprogramming documents (001415 and
001105) prepared by the Office of the Deputy Assistant Secretary of Defense for
Counternarcotics and forwarded to 000 Comptroller. Funds are reprogrammed to the
applicable appropriation/budget activity at the Service/Defense Agency by project (e.g.,
Navy's Fleet Support, Hemispheric Radar System, Counternarcotics RDT&E). The
internal reprogramming (IR) action requires no congressional notification/approval.

         The Services/Defense Agencies have their own internal accounting systems for
tracking obligations of funds transferred from the Counternarcotics CTA. The following
examples provide the process of how obligations are tracked:
•	 The Army Budget Office receives obligation data from the Defense Finance and
    Accounting System (DFAS) on a monthly basis and funds are tracked by the
    DFAS/Standard Army Financial Information System (STANFINS).
•	 The Air Force uses the USAF General Accounting & Finance System (GAFS) and the
    Commanders Resources Integration System (CRIS) to track obligations. Both of these
    systems are utilized for Counternarcotics obligations and commitments. These
    systems interface directly with the DFAS.
•	 The Navy uses the Standard Accounting and Reporting System, Field Level (STARS­
    FL) which provides the means of tracking allocated counternarcotics funds through the
    life cycle of the appropriation at the activity/field level. Navy counternarcotics funding is
    recorded under separate cost centers and sub-cost centers, with a line of accounting
    consisting of subhead, project units and cost codes specifically for counternarcotics
    obligation tracking.
•	 The Army and Air National Guard employs a central accounting service from the DFAS
    to consolidate, aggregate, and report on funds as they are committed, obligated, and
    expended. The Army State and Federal Program Accounting Codes and the Air
   Accounting Codes provide funds-tracking mechanisms to reconcile funding at various
   levels of reporting and execution.

        The Services/Defense Agencies provide quarterly obligation reports by project code
to the Office of the Deputy Assistant Secretary of Defense for Counternarcotics (CN).
Beginning in FY 2008, the collection of obligation data has be via the DASD CN database
and compiled into a single counternarcotics obligation report. The obligation and
expenditure data provided by the Services/Defense Agencies are compared against their
total annual counternarcotics funding for each appropriation. At the end of the year, the
Services/Defense Agencies provide an end of year data which reflects their actual
obligations, not an estimation.

       The quarterly obligation data collected is by project code, not down to the drug
control function. In order to comply with ONDCP's circular and provide obligation data by
function, it was necessary to use percentages for each project code.
